<html>
<title> - FINDING YOUR WAY: THE FUTURE OF FEDERAL AIDS TO NAVIGATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
       FINDING YOUR WAY: THE FUTURE OF FEDERAL AIDS TO NAVIGATION

=======================================================================

                                (113-51)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
86-585                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
MARK SANFORD, South Carolina         NICK J. RAHALL, II, West Virginia
BILL SHUSTER, Pennsylvania (Ex         (Ex Officio)
    Officio)
VACANCY
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Rear Admiral Joseph Servidio, Assistant Commandant for Prevention 
  Policy, United States Coast Guard..............................     3
Rear Admiral Gerd F. Glang, director, Office of Coast Survey, 
  National Oceanic and Atmospheric Administration................     3
James R. Hannon, Chief, Operations and Regulatory, United States 
  Army Corps of Engineers........................................     3

                                Panel 2

Dana A. Goward, president and executive director, Resilient 
  Navigation and Timing Foundation...............................    20
Larry A. Mayer, Ph.D., professor and director, School for Marine 
  Science; director, Center for Coastal and Ocean Mapping; and 
  codirector, NOAA/UNH Joint Hydrographic Center, University of 
  New Hampshire..................................................    20
Scott Perkins, GISP, on behalf of the Management Association for 
  Private Photogrammetric Surveyors (MAPPS)......................    20
Captain Lynn Korwatch, executive director, Marine Exchange of the 
  San Francisco Bay Region.......................................    20

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. John Garamendi, of California...............................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Rear Admiral Joseph Servidio.....................................    35
Rear Admiral Gerd F. Glang.......................................    38
James R. Hannon..................................................    47
Dana A. Goward...................................................    50
Larry A. Mayer, Ph.D.............................................    53
Scott Perkins, GISP..............................................    60
Captain Lynn Korwatch............................................    64

                       SUBMISSION FOR THE RECORD

Captain Lynn Korwatch, executive director, Marine Exchange of the 
  San Francisco Bay Region, answers to questions for the record 
  from Hon. John Garamendi, a Representative in Congress from the 
  State of California............................................    71

                         ADDITION TO THE RECORD

Boat Owners Association of the United States, written testimony..    73

[GRAPHIC] [TIFF OMITTED] 


       FINDING YOUR WAY: THE FUTURE OF FEDERAL AIDS TO NAVIGATION

                              ----------                              


                       TUESDAY, FEBRUARY 4, 2014

                  House of Representatives,
                        Subcommittee on Coast Guard
                       and Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room 2253, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. The 
subcommittee is meeting today to review the future of the 
Federal Government's navigation programs. I want to thank and 
commend Ranking Member Garamendi for requesting the 
subcommittee hold this hearing and explore this important 
topic.
    We rely on the navigation activities of the Coast Guard, 
the Army Corps of Engineers, and NOAA to provide for a safe, 
secure, and efficient Marine Transportation System that forms 
the backbone of our economy. The maritime sector contributes 
more than $650 billion annually to the U.S. gross domestic 
product and sustains more than 13 million jobs. Nearly 100 
percent of our overseas trade enters or leaves the U.S. by 
vessels navigating the Marine Transportation System.
    To maintain this economic output, facilitate the efficient 
movement of goods, protect the environment, and ensure the 
safety and security of Marine Transportation System, the 
navigable waters of the United States are charted, marked, and 
dredged on a regular basis. NOAA is tasked with surveying and 
producing over 1,000 nautical charts covering 95,000 miles of 
shoreline and 3.4 million square nautical miles of waters; the 
Corps is responsible for surveying and maintaining the depth of 
nearly 25,000 miles of Federal navigation channels throughout 
the country; and the Coast Guard is charged with the 
maintenance of over 50,000 Federal Government-owned buoys, 
beacons, and other aids to navigation that mark 25,000 miles of 
waterways.
    In fiscal year 2013, NOAA, the Corps, and the Coast Guard 
spent over $2.5 billion to carry out these navigation missions. 
In light of the current budget environment, I am interested in 
exploring ways to carry out these missions in a more cost-
effective manner, while also ensuring the safety, security, and 
efficiency of our waterways.
    In an age of electronic communications and digital 
technology, I am interested in the savings and efficiencies 
that can be gained through an E-Navigation system, as well as 
the progress we have made in implementing E-Navigation. 
However, I am also concerned that as an E-Navigation system is 
built out, adequate redundancies and backup systems are put in 
place to ensure safety.
    In order to grow jobs and remain competitive in a global 
economy, we must build and maintain a world-class navigation 
system. I look forward to hearing from our witnesses what 
progress they have made toward making such a system a reality.
    And I have to tell you, too, from my experience as an 
artillery officer, we went to GPS for artillery. Artillery is 
the big cannons we use in the Marine Corps, and we shoot with 
them. But you have to know where you exist on the planet to 
know where you are shooting at. And we went to GPS in about 
2005, and we also went--we still had maps and we still knew how 
to lay a battery. We knew how to do that, but we switched to 
GPS so we could do it much faster. If the GPS went down, which 
the military always thinks of, especially in a combat 
situation, you are always able to go back and use the old 
system. And I think that if you can do it in war time, when it 
comes to shooting giant projectiles at the enemy, you can sure 
as hell do it in the ocean and have some kind of a backup 
system to--in case the GPS goes down or the Chinese shoot our 
satellites out, or whatever. The ability is there.
    So, I think that we are lagging a little bit behind the 
times, probably because we haven't been forced to change. I 
think in the military, especially in a wartime environment, you 
are forced to change. And I think we are lagging here when it 
comes to NOAA and the Coast Guard on doing the same thing.
    And I would like to thank Mr. Garamendi for holding this 
hearing, for requesting it, and with that I yield to the 
ranking member.
    Mr. Garamendi. Thank you, Mr. Chairman. And I will try to 
be brief, because I really want to hear from the witnesses 
here.
    Before I begin, I do want to thank you, Mr. Chairman, for 
following through on my request to convene this morning's 
hearing. We are in the midst of a revolution. Not a political 
or social one, which may be of interest to you and I, but, 
really, one that speaks to technology. It is evident all across 
this Nation--Sacramento River, where I live, the coastal waters 
of San Francisco, and even San Diego, which I know you are 
interested in--this technological revolution can be a major 
part of our national system and aids to navigation.
    The emergence and rapid evolution of advanced satellite 
telecommunications, even GPS, and noting that the Marine Corps 
is moving rapidly into the modern world. Remote sensing, 
computer technologies, all this has changed, and it gives us an 
opportunity to ensure the safe passage of commercial and 
recreational vessels that transit the coastal inland waters of 
the United States. This transition to a system of E-Navigation, 
the tools and technologies offer many advantages over the 
conventional aids to navigation such as nautical charts, 
beacons, buoys, and lighthouses that have guided our mariners 
for generations.
    But this transition also raises important questions. Are 
the electronic systems reliable, and is the infrastructure 
resilient? Can it, or should it, replace our entire system of 
physical aids to navigation? How are we going to maintain and 
financially sustain the E-Navigation infrastructure and 
technologies over time? And finally, what is the appropriate 
role of the non-Federal partners in this enterprise?
    The responsibility to ensure the safety of navigation is 
one of the Federal Government's oldest tasks, dating back even 
before the coastal survey by Thomas Jefferson in 1807. 
Fortunately, our system of aids in navigation has proven itself 
to be one of the best investments ever made by Congress. But 
how we manage the rapid transition to a world of E-Navigation 
technologies will affect the future of safety and efficiency of 
the maritime commerce for decades to come.
    So, Mr. Chairman, thank you for the hearing, and let's get 
on with it.
    Mr. Hunter. I thank the ranking member. And I just want to 
point out, too, I mean, one of the reasons I am interested in 
this is DHS has studied the Presidential directive that told 
them to create a backup system for GPS, and their conclusion 
was that we needed to study it more. So they did a study, and 
now we are going to do more studies, and that is the circle 
loop, the endless loop of stupidity that we have in Congress, 
instead of just getting something done.
    Anyway, so with that, our first panel of witnesses today 
are Rear Admiral Joseph Servidio, Assistant Commandant for 
Prevention Policy at the United States Coast Guard; Rear 
Admiral Gerd Glang, director of the Office of Coast Survey of 
the National Oceanic and Atmospheric Administration; and Jim 
Hannon, Chief of Operations and Regulatory for the United 
States Army Corps of Engineers.
    Admiral Servidio, you are recognized for your statement.

TESTIMONY OF REAR ADMIRAL JOSEPH SERVIDIO, ASSISTANT COMMANDANT 
FOR PREVENTION POLICY, UNITED STATES COAST GUARD; REAR ADMIRAL 
   GERD F. GLANG, DIRECTOR, OFFICE OF COAST SURVEY, NATIONAL 
 OCEANIC AND ATMOSPHERIC ADMINISTRATION; AND JAMES R. HANNON, 
 CHIEF, OPERATIONS AND REGULATORY, UNITED STATES ARMY CORPS OF 
                           ENGINEERS

    Admiral Servidio. Good morning, Chairman Hunter, Ranking 
Member Garamendi, and distinguished members of the 
subcommittee. It is my pleasure to be here today to discuss the 
Coast Guard's role in managing and maintaining the Federal 
navigation system that supports hundreds of billions of dollars 
of commerce and 13 million jobs in the U.S.
    The Coast Guard absorbed the Lighthouse Service in 1939. 
And back then, there were fewer than a quarter of today's 
50,000 Federal aids and 50,000 private aids to navigation. 
Recently, we have implemented numerous functional and 
environmental improvements to both fixed and floating aids, 
including solarization, installing the latest day/night LED 
lighting, transitioning to environmentally friendly codings, 
and the use of more efficient mooring systems. These 
improvements enhance performance by increasing visibility, 
improving reliability, and reducing maintenance.
    Our vision for a 21st-century navigation system is one that 
improves safety, recognizes the need for resiliency, and 
facilitates the flow of commerce through an optimum balance of 
visual and electronic aids. To achieve this vision, the Coast 
Guard is integrating electronic positioning and navigation 
technology, and leveraging investments in infrastructure, such 
as the automated identification system, or AIS, to provide 
mariners with the most accurate and timely nav info available.
    We are also focused on increasing the efficiency of our 
support system. This includes investing in vessel sustainment 
programs for our multimission buoy tender fleet, leveraging the 
relatively low cost, yet highly effective capabilities of our 
aids-to-navigation teams, and adopting cost-saving best 
practices at all program echelons.
    One of the most important considerations for the Coast 
Guard is the ever-increasing size and number of vessels 
operating on U.S. waterways. With increased ship size, the 
margin for error for safe navigation in our waterways is 
getting increasingly smaller. With the support of the Committee 
on the Maritime Transportation System, the Coast Guard is 
working closely with a broad spectrum of Federal agencies and 
our key partners, the Army Corps of Engineers and NOAA, to 
identify and mitigate evolving risks on our Nation's waterways. 
Together, we are engaging the public to ensure that we gather 
input from the full range of waterway users so we make informed 
decisions and provide stakeholders with the information they 
need.
    Mariners and industry have told me how important timely and 
accurate information is in managing waterway risks. This is why 
the Coast Guard is looking to leverage the capability provided 
by AIS to transmit real-time information directly to the 
mariner. When fully implemented, we expect the system will be 
able to provide immediate notification of safety and security 
zones, hazards to navigation, and special events and 
operations.
    Moving forward, we will also continue to leverage the 
capabilities provided by increasingly sophisticated and 
affordable electronic chart systems which can display 
electronic nav aids, radar overlays, and text-capable 
notifications. Our modernization plan will include 
opportunities to eliminate unnecessarily or overly redundant 
visual aids when appropriate.
    As we take advantage of the capabilities electronics 
systems provide, it is important to understand that there will 
always be a need for visual aids to navigation in America's 
waterways. Electronic aids and information transmitted over AIS 
can provide vital resiliency, and can be a valuable 
augmentation tool. However, safe navigation requires visual 
references to validate position information.
    Coast Guard efforts have yielded significant results. For 
example, the use of electronic aid markers during last summer's 
Americas Cup in San Francisco was widely touted as a great 
success. We will continue to evaluate lessons learned from this 
event and integrate them into our developing modernization 
plans. Together with our key NOAA and Army Corps of Engineers 
partners, and in coordination with waterway users, we will 
design and implement a Federal navigation safety system 
composed of the optimum balance of visual and electronic aids, 
one well suited for future needs of mariners and navigation.
    Finally, I would like to thank Congress and this 
subcommittee in particular for the support and the investments 
you have made to help us improve our navigation safety 
programs. I look forward to answering your questions.
    Mr. Hunter. Thank you, Admiral.
    Admiral Glang?
    Admiral Glang. Good morning, Chairman Hunter, Ranking 
Member Garamendi, and members of the subcommittee, I am Rear 
Admiral Gerd Glang, director of the Office of Coast Survey at 
the National Oceanic and Atmospheric Administration in the 
Department of Commerce. And in this capacity I also serve as 
the U.S. National Hydrographer. Thank you for inviting NOAA to 
testify today on Federal aids to navigation and the products, 
services, and expertise NOAA provides in support of safe and 
efficient marine navigation and commerce.
    I am pleased to join my colleagues from the Coast Guard and 
the Army Corps of Engineers. Our agencies work together on the 
water every day, and at higher levels, such as through the 
interagency Committee on the Marine Transportation System, to 
maintain and improve maritime infrastructure, protect life and 
property, and facilitate marine commerce.
    When you plan a road trip, there are certain things that 
you need upfront to make your trip safer and more time 
efficient, such as maps, weather forecasts, and traffic 
conditions. Mariners rely on similar information before going 
to sea and while on the water. They need accurate and 
authoritative nautical charts, marine weather forecasts, and 
information on tides, currents, waves, and other environmental 
conditions that could pose navigation challenges. This 
information becomes even more valuable as ships get larger and 
larger, and the sea room around them decreases as they seek to 
gain every inch of available draft.
    The Federal partners all have important roles to play in 
maintaining maritime infrastructure and supporting the Marine 
Transportation System and safe navigation. NOAA plays a 
critical and unique role in providing the informational 
infrastructure that makes maritime commerce safer, more 
reliable, and more efficient.
    Since Thomas Jefferson called for and Congress authorized a 
survey of the U.S. coast in 1807, NOAA and its predecessor 
organizations have been the authoritative Federal source for 
domestic marine charts, as well as water level and positioning 
data and services. NOAA maps the sea floor, provides the 
Nation's nautical charts, and quickly conducts hydrographic 
surveys following storms or other emergencies. We also work 
closely with the U.S. Navy and the National Geospatial 
Intelligence Agency, who have responsibilities for hydrography 
and charting overseas.
    NOAA is the source of information on tides, water levels, 
and currents, and provides the Nation's underlying horizontal 
and vertical positioning framework, which serves as a spatial 
foundation for all mapping and charting. This framework also 
informs flood risk determination, transportation planning, and 
land use decisions. NOAA is responsible for issuing marine 
weather forecasts and warnings for U.S. coastal waters and 
Great Lakes, the Pacific and Atlantic Oceans, and portions of 
the Arctic Ocean.
    NOAA is also the lead Federal agency for the U.S. 
Integrated Ocean Observing System, or IOOS, a partnership that 
provides valuable ocean data and services.
    Lastly, NOAA supports emergency response within U.S. ports 
and waterways by providing scientific support for hazardous 
spill response, as well as hydrographic surveys and aerial 
imagery to support damage assessment and the resumption of 
maritime commerce.
    In fulfilling these responsibilities, NOAA sits on the 
cutting edge of technological development, and uses innovative 
approaches and partnerships to meet stakeholder needs. For 
example, NOAA uses the latest multibeam echosounder technology 
and airborne laser, or LiDAR, technologies to more accurately 
and efficiently map the sea floor and shoreline, and is 
deploying new sensors for NOAA's Physical Oceanographic Real-
Time System, or PORTS. NOAA is also advancing its charts and 
other navigation-related products, integrating them where 
possible, improving their accessibility, their formats, and 
their use.
    Our partners and daily interactions with the Coast Guard 
and Army Corps are essential in assuring our waterways are safe 
and our products and services are up to date and relevant. As 
we work through the CMTS and develop these technological 
advancements that will result in seamlessly integrated Federal 
navigation support and improved collaboration in collecting and 
disseminating informational infrastructure.
    NOAA's strengths include our versatility and responsiveness 
to customer needs. We regularly seek user feedback on our 
navigation products, and strive to improve those tools to meet 
emerging needs. In this effort, we are currently working with 
the Coast Guard and the Army Corps to plan a series of 
listening sessions around the Nation. Our goal is to better 
understand customer needs and identify the navigation 
improvements that will best meet those needs.
    As you mentioned, 99 percent of America's overseas trade 
enters or leaves the U.S. by ships and demands on our waterways 
and maritime infrastructure will only increase. NOAA continues 
to work closely with our Federal colleagues to provide that 
informational infrastructure.
    I thank you for inviting NOAA to testify today, and I 
welcome any questions you may have.
    Mr. Hunter. Thank you, Admiral. We appreciate it.
    Mr. Hannon, you are recognized.
    Mr. Hannon. Good morning, Chairman Hunter and Ranking 
Member Garamendi, and distinguished members of the 
subcommittee. I am Jim Hannon, Chief of Operations and 
Regulatory for the U.S. Army Corps of Engineers. I am honored 
to be here today to discuss the future of Federal aids to 
navigation in the United States.
    The Corps helps facilitate commercial navigation by 
providing support for safe, reliable, cost-effective, and 
environmentally sustainable waterborne transportation systems. 
We now invest over $1.8 billion annually to study, construct, 
replace, rehabilitate, operate, and maintain commercial 
navigation infrastructure for approximately 13,000 miles of 
coastal channels and 12,000 miles of inland waterways. The 
Corps works in partnership with Federal agencies, to include 
the U.S. Coast Guard and the National Oceanic and Atmospheric 
Administration, as well as stakeholders, to help manage these 
navigation on these waterways.
    With respect to Federal aids to navigation, we are 
responsible for providing surveys to these coastal channels and 
inland waterways to the Coast Guard, who then deploys its aids 
to navigation to mark the channel. This information is also 
then reflected on the coastal nautical charts provided by the 
NOAA and the inland nautical charts that are provided by the 
Corps of Engineers.
    Over the past decade, we have experienced an exponential 
growth in data we create and use to operate, maintain, and 
manage these assets. We have also seen this same trend 
throughout the marine transportation community. Over the past 
several years, we have developed frameworks and strategies to 
improve data value by converting raw data into information and 
knowledge. Our philosophy is to collect data once and use it 
many times by making it available throughout our organization 
and to others. E-Navigation is the term we use to define these 
principles, and the national and international definition of E-
Navigation speaks to the harmonizing of this data across the 
Nation's navigable waterways, and to including all 
stakeholders, both public and private.
    The Corps has successfully developed and deployed a number 
of E-Navigation tools that are in use today. As the U.S. 
nautical charting authority for the inland waterways, we have 
created over 7,200 miles of detailed inland electronic 
navigational charts that support the navigation safety. In 
2013, over 1 million mariners downloaded these charts and chart 
updates, ensuring they had the most up-to-date information for 
navigating the rivers.
    Another E-Navigation tool combines our inland electronic 
charts with U.S. Coast Guard Automatic Identification System, 
their AIS. The Corps Lock Operations Management Application--
LOMA--visualizes real-time movement of commercial vessels on 
the inland waterways. LOMA was deliberately designed to be 
compatible with the U.S. Coast Guard's AIS program to provide 
real-time quality assurance and long-term data archival and 
retrieval.
    In addition to providing both agencies with real-time 
situational awareness, LOMA also transmits information called 
river information services directly to the vessels on the 
inland waterways. This includes transmitting water current 
velocities at our locks to barge-tow operators, so they are 
situationally aware of potential unexpected conditions at our 
lock entrances.
    We also use the LOMA tool to transmit a range of 
information such as locations of dredges, construction 
activities, and to issue other marine notices. We are presently 
working with the NOAA and with the Coast Guard to create an 
integrated three-agency marine safety information notice for 
broadcast on all of the coastal and inland ports and channels. 
This will provide commercial mariners and the public a single 
notice that includes all three agencies' information. We expect 
the first version to be operational by the end of the year.
    We utilize a coastal E-Navigation tool called E-Hydro to 
provide our channel condition surveys to NOAA. This tool 
assembles and disseminates consistent and reliable surveys from 
across the Corps by formatting the data into international 
standards to meet NOAA's nautical charting needs. E-Hydro is 
Internet-based, so it significantly reduces the amount of time 
it once took us to provide this data.
    In closing, the Corps is actively engaged in developing and 
improving and deploying digital navigation information by 
harmonizing this data through our E-Navigation principles. 
Through a working group of the Committee on the Marine 
Transportation System, we have been working with the U.S. Coast 
Guard, NOAA, and other Federal agencies to use their data, make 
our data and information available, link this information, and 
then provide it to mariners and operators with the goal of 
improving the safety of our Nation's channels and waterways.
    Mr. Chairman, this concludes my statement. Again, I 
appreciate the opportunity to be here and testify today, and be 
pleased to answer any questions you may have. Thank you.
    Mr. Hunter. Thanks, Mr. Hannon. We are going to begin 
questioning now.
    I just have a quick one. What is the overlap? Or is there 
no overlap? Is there any redundancy? Does everybody have a lane 
and they stay in it, and it complements everybody else's?
    Admiral Glang. Chairman, let me take a crack at that 
answer, and maybe the others, as well.
    So, we work very hard to stay in our lanes. That is 
probably a good way to describe it. So with the Army Corps, for 
instance--I will draw you a mental picture--approaching the 
Chesapeake Bay, there is a Federal channel, that is the Army 
Corps' responsibility. As you come in that Federal channel, you 
will see the aids to navigation, or the lighthouses. That is 
the Coast Guard's responsibility. And then, to bring all that 
information together on a nautical chart, that is NOAA's 
information.
    Mr. Hunter. Got you.
    Mr. Hannon. Sir, I would also echo what Admiral Glang says. 
We do the surveys on inland and coastal. We provide the 
information to the Coast Guard and to the NOAA to be able to do 
the coastal charts, which we don't do. And then we use that 
information to do the inland charts. Then again, Mr. Chairman, 
the Corps provides that information so both the NOAA and the 
Coast Guard can provide the aids to navigation.
    Admiral Servidio. Mr. Chairman, I guess I would say that if 
there is any overlap, we are doing whatever we can to see which 
agency is the most effective and efficient at doing that and 
reducing that. We have met monthly. We are going right from 
here to an infrastructure investment roundtable together. We 
work closely together to see that we leverage each of our 
capabilities, which are unique, in managing our waterways. 
Because the resources are not limitless. So we recognize the 
need to, again, work together for the mariners and look at the 
future of what our navigation needs are.
    Mr. Hunter. So let me ask you. The U.S. Geological Survey 
has a different coastline than you do on their maps, for 
instance. There is two different coastlines if you look at 
yours and you look at theirs.
    My question would be--I will wait until the admiral is 
finished getting his answer. I am just kidding.
    [Laughter.]
    Mr. Hunter. I am sure he wasn't telling them--did you hear 
the question? The coastline differs with different surveys and 
different maps.
    Admiral Glang. That is right. So it is my understanding 
that it is the shoreline on NOAA nautical charts that is used 
for the purpose of legal issues. And it is certainly the 
National Geodetic Survey, which is our sister program within 
NOAA who maintains the national shoreline. So it is my 
understanding that USGS is actually getting some of their 
shoreline data from us.
    Mr. Hunter. But they are different. I am just bringing up--
you don't have to have the answer for that, because there 
probably isn't one, but that is just an example.
    Really quick, when it comes to the E stuff, when it comes 
to the GPS, there is about 13 million fun boaters out there. 
You thinking of anything like an iPhone app? And not one that 
we develop for $5 billion, but like a $500 iPhone app that 
allows them to see stuff and download? And to go along with 
that, do you ever see a time where you don't need visual cues, 
where it is all electronic? Or is part of being on the ocean 
that you are going to have visual aids because we had them 
5,000 years ago and we are going to have them now?
    Mr. Hannon. Let me take the first question regarding 
applications and recreation boaters on our inland navigation 
systems. It is about sharing--our E-Navigation is about sharing 
that data and making it available. And we are working to have 
some smartphone applications. In fact, I was just looking at a 
couple yesterday that cost about $10 to download those apps. Of 
course, to be able to print the charts, you still have to pay 
to print the charts.
    But we are working to move in that direction, where we make 
it more accessible to folks to have ease of getting that 
information for inland waterway and navigation systems.
    Admiral Servidio. Mr. Chairman, I think your question is on 
point with regards to the different needs of the different 
waterway users. There is a number of people now--kayaking and 
paddle boats are the biggest growth area, as far as 
recreational vessels go. So they have very different 
capabilities than that pilot bringing a deep draft vessel in 
that has a pilot laptop. We need to make sure our navigation 
system meets all of those users' needs.
    Now, it might not be Federal aids to navigation. It might 
be private aids to navigation. There might be a whole spectrum 
that we need to look at. But we recognize the waterway users--
there is a number of them--and they all have different 
capabilities. And we need to make sure that our nav system of 
the future addresses those various user needs and their 
capabilities.
    Mr. Hunter. I would say lastly--I am out of time--but, 
Admiral, when you just--in your comments, when you said when 
you go on a road trip you make sure that you have a map and all 
this stuff, and my--what I told John was, no, you just--an 
iPhone. And that is true, I think, for everybody. I mean, you 
know, 10 years ago we would go buy the road atlas and make sure 
that we turn--watch our odometer. But I don't think you do that 
anymore. I think that is one of the points of this hearing, is 
to establish that.
    And, with that, I yield to the ranking member.
    Mr. Garamendi. Let's carry on where you left off, Chairman 
Hunter. And if you would like some more time to carry it on, 
please do.
    But there is a opportunity here for public-private 
partnership. It is obviously taking place with various kinds of 
apps that can be purchased. But all of that is dependent upon 
the database and the ability for these private sector 
entrepreneurs and companies to access that database. How is 
that working? Is the database available for these private 
organizations to get that information and then to publish it? 
And what problems might there be, as a result of that? Any one 
of you want to start with that? Admiral?
    Admiral Glang. Yes, sir, thank you. So this is actually 
kind of the exciting part of the future of navigation. At NOAA 
we make available for free the raster version, which is kind of 
an image version of our electronic charts, and our electronic 
navigation charts for free to the public, and that has been 
available now for at least a dozen years. And what we are 
seeing is a large entrepreneurship out there where folks are 
building things like smartphone apps or GPS-based chart plotter 
systems, and they take up our charts in either of those 
formats--or, in some cases, in both--and then they add value to 
it and make that product available to the boater or to the 
mariner.
    A new product we just rolled out is making our charts 
available in pdf, which is the portable document format form, 
so mariners can actually print a chart out at home, if they 
want to do that. PDF will not meet carriage for the regulatory 
requirement, but it is certainly a way to get the chart into as 
many hands of as many boaters as possible for as low a cost as 
possible.
    Mr. Garamendi. Pick up that regulatory piece of it.
    Admiral Glang. Yes, sir. So ships that need to meet 
carriage requirements under the SOLAS agreements and the IMO 
are required to carry navigation charts from an authorized 
hydrographic office. So for U.S. waters that is the National 
Ocean Service. And at the moment, the state of play is shippers 
are required to have paper charts. And there is a transition 
process now where they are using electronic systems.
    Mr. Garamendi. I will just go Coast Guard and then Army 
Corps of Engineers. Same subject matter, availability of the 
database for private entrepreneurs and others that want to 
develop an application.
    Admiral Servidio. Yes, sir. Generally, what the Coast Guard 
does when it comes to regulatory, we look at international 
standards. And the international standards are the ones that 
are overarching for the AIS system, for GPS, for raster, for 
radars on vessels and other types of information displays, so 
that you can take that information, you can use them in 
multiple sources. As other GPS regimes come on board, there 
will be an international standard for how they need to be 
transmitting data, so again we can use--so others can look at 
that.
    Mr. Garamendi. Are private entities able to access this 
information? Any problem in doing so?
    Admiral Servidio. Well, the security of some of the 
information, that is part of the reason why we have a 
Government function to oversee some of the security for AIS and 
other things in our ports, sir. It is a transparent system, so 
that every vessel can see the information provided by other 
vessels, but there are spoofing, and there is other types of 
things, and that is why we have capabilities in place to 
address that.
    Mr. Garamendi. Army Corps?
    Mr. Hannon. Yes, sir. As I mentioned, our information is 
provided across the Internet, Web-based services, which was 
really how the two apps were developed, so private industry 
could pick up that information and then they can have that 
information printed off for anyone who goes to those apps.
    Mr. Garamendi. OK. Is there a need for a formal advisory 
committee that would assist the three entities in developing 
additional information and making it more readily available, 
and also updating or upgrading this information?
    Admiral Servidio. Sir, the Coast Guard has a Federal 
advisory committee, NAVSAC, Navigation Safety Advisory 
Committee, that we consult with. And they give us regular 
recommendations with regards to transitioning, what is 
acceptable, what is not acceptable.
    Mr. Hannon. Yes, sir. I would also offer that. I believe 
the work that we are involved in with the Coast Guard and NOAA, 
as well as other Federal agencies within the Committee on the 
Marine Transportation System and this E-Navigation action team 
that is assimilating information and pulling information 
together, is a good way to address your question, as well, sir.
    And, of course, we all reach out to various stakeholders, 
navigation industry, international industries, as well, to get 
information and plug back in to those----
    Mr. Garamendi. Is that a formal process, or is it ad hoc, 
that advisory--from the private sector?
    Mr. Hannon. Reaching out? At least with us, the Corps of 
Engineers, it is through our various meetings that we have with 
our industry partners, with the navigation industry, the 
various industry partners, with PIANC, the international 
navigation association. I wouldn't call it ad hoc; we 
intentionally reach out and, through those dialogues, get that 
information.
    Admiral Servidio. Ranking Member, sir, I believe one of the 
members of the second panel actually serves on NAVSAC. So they 
might be----
    Mr. Garamendi. Thank you. Would you recommend any changes 
in the law or the regulations to further the purpose of E-
Navigation? And, if so, what are those changes that you might 
think necessary, besides more money? Or maybe we ought to just 
focus on more money.
    Admiral Servidio. Sir, I do think that your--as you 
mentioned, the money aspect. People think that electronic aids 
to navigation is going to be a money saver. I am not sure 
whether that is going to be the case, as we go forward.
    I am not aware of any laws that need to be changed at this 
point in time, sir. But I am not sure whether the future will 
be cheaper than what the present system is, because----
    Mr. Garamendi. Well, what hindrances are there in the 
present system that would delay or cause not to occur E-
Navigation and the integration of E-Navigation with the other 
navigational aids?
    Admiral Servidio. Sir, I think the greatest issue right now 
is the needs of the various segment of users of our waterways. 
When I go to pilots, they will identify certain buoys that 
could be removed. If I go to recreational boaters, they will 
say those are the buoys that need to stay, those are the 
systems.
    So, I think we need to have that discussion, and this is 
what we are looking to do, both NOAA, the Army Corps, and the 
Coast Guard, to have public listening sessions, to have an 
outreach, to recognize that there are electronic systems that 
are everywhere now that were nonexistent 20 years ago. And we 
need to transition into what the new navigation system looks 
like, and take our current system and see how we can transition 
to what is necessary for the future, sir.
    Mr. Garamendi. Any other comments on that?
    Admiral Glang. Yes, sir. So I am not aware of any laws or 
regulations at this point that we would want to change. I think 
of E-Navigation as an evolution. And maybe an analogy is the 
Internet, and how we have learned to use that and exploit it. 
And I think if you broadly equate E-Navigation with a marine 
intranet, then one of the things that comes to mind is having a 
reliable and robust way to get that information ashore, or 
among ships through the Internet. And to enable that, you have 
to think about some kind of a coastal infrastructure to support 
that kind of marine Internet out to, say, 30 nautical miles. So 
that is the kind of infrastructure, the big pieces, I think, 
that would really enable us to fully take advantage of E-
Navigation.
    Mr. Hannon. Sir, we have not seen any laws, regulations, or 
policies that create any challenges or impediments.
    I think one of the challenges for us just becomes 
priorities. We interact with our various stakeholders to 
understand what their needs are, and then collaboratively work 
with them to address those needs. I think the other part is 
just your basic firewall IT challenges, as we learn and grow.
    Mr. Garamendi. I yield back, Mr. Chairman.
    Mr. Hunter. Thank the ranking member. The gentleman from 
the Carolinas is recognized, Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman. I want to start out by 
saying that I am very blessed to live in a coastal area, and 
have spent a lot of time on the waterways, offshore and 
inshore, and am so very impressed with what you all have been 
able to do, the navigation aids here. And I have also had the 
pleasure of being able to navigate in places other than the 
United States, and I can tell you that it sure is a lot easier 
to navigate here with the aids that you do have.
    And, you know, I can sit here with my smartphone today and 
access the data from a NOAA buoy 40 miles offshore and see what 
the wind is doing and the waves are doing, and I can look at a 
weather satellite and see what the water temperatures are, and 
it is fascinating, what you have been able to do.
    I also see, not with respect to navigational aids, but my 
primary concern here, as a congressperson, is jobs. I think 
that is what our country is concerned about, and making this 
country competitive. And when I see things, what we have done 
with the Port of Miami, and it has taken 15 years to get a 
permit to dredge that port, what we are dealing with at the 
Port of Charleston right now, I know there are a lot of ways 
that we can make us more efficient, because if we can't get 
these ports dredged, we can't use the post-Panamax ships. It 
costs $500, $700 less to ship a container from Charleston to 
Singapore with a post-Panamax ship than it does with the ships 
we currently use. So if we can't get these ports dredged, then, 
obviously, we are putting our manufacturers in the United 
States at a huge disadvantage to the rest of the world.
    So, here is my question to you with respect to navigational 
aids. What are you doing right now, how will this make us more 
competitive, how will this make our ports more accessible to 
international trade, and create American jobs? That is my 
primary concern. That is what I want to hear about. And how can 
I help you do that?
    Admiral Servidio. Sir, let me take a shot at that. I can 
tell you right now, NOAA puts out ports data, which is real-
time information on the height of the water. St. Lawrence 
Seaway is allowing vessels to have certain equipment on board 
to load 3 inches deeper. That is significant, when you end up 
looking at the efficiency of our ports and commerce and jobs 
and other things that go with it.
    From this meeting, sir, this afternoon, the Committee on 
Maritime Transportation Systems has a meeting on infrastructure 
investment. We are going to have a roundtable that all of us 
are going to be participating in, looking at how we most 
effectively use the Federal dollars that go into infrastructure 
investment. But----
    Mr. Hunter. We didn't get our invite to that, just so you 
know.
    [Laughter.]
    Mr. Hunter. That is OK.
    Admiral Servidio. We will let you know the results, sir.
    Mr. Hunter. I am sure you will.
    Admiral Servidio. So I have recognized the need for it. 
Vessels, again, the new Panamax vessels, are going to be 1,150 
feet long, as opposed to--two decades ago we saw about 820-
foot-long ships. And the new Panamax vessels are 50 percent 
wider. So we do need to look at those types of investments, 
sir, because our infrastructure is designed for a smaller 
vessel at the present point in time.
    Mr. Rice. Well, it would appear to me that would just be 
moving the markers around. I mean what can we do to make it 
more efficient? What can we do to make it easier here than 
anywhere else? What can we do to make it cheaper here than 
anywhere else to pass cargo in and out? You guys are the 
experts.
    Mr. Hannon. Let me discuss our inland navigation system, 
with our locks and dams. We have 197 locks on our inland 
navigation system. The majority of those locks are over 50 
years old, our infrastructure is aging.
    One of the benefits that we see with our E-Navigation--and 
I mentioned this in my testimony on our river information 
services--is our ability to transmit to the tow operators real-
time current velocities that are at the entrances to our locks. 
So they know, as they approach our lock and dams, what is 
happening there, and can gauge and adjust as they come in. This 
means less collisions or ``allisions,'' as we say in the 
industry, which means less opportunity to have already aging 
infrastructure further damaged.
    Mr. Rice. Kind of like timing your stop lights?
    Mr. Hannon. Yes, sir, that is. We also see opportunities to 
see what traffic is moving up and down the waterways, and to 
work with industry to be more efficient in how we move those 
tows through our locks and dams on our inland system.
    We also are able to share information in real-time about 
what are those conditions that are taking place, like dredges 
that might be in an area, so vessel operators would know as 
they were approaching and can make adjustments.
    Mr. Rice. I should know this, but I am a freshman, so you 
forgive me. Is the Harbor Maintenance Trust Fund monies--are 
they available for maintenance and improvement of your 
navigational aids?
    Mr. Hannon. They are for the coastal channels and coastal 
ports, but not for the inland channels.
    Admiral Servidio. And not for the navigation aids, sir.
    Mr. Rice. OK. Not for the navigation aids?
    Admiral Servidio. For the channels, sir, not for the aids 
to navigation.
    Mr. Rice. OK. So do you have ample funds to maintain your 
navigational aids?
    Admiral Servidio. We have ample funds at present, sir, to 
maintain our navigational system. We are going to be doing 
listening sessions and seeing what the needs are in the future. 
And again, right now we have ample funds to maintain the system 
we have, sir.
    Mr. Rice. Is LORAN still operational? Please tell me no.
    Admiral Servidio. LORAN is not operational, sir. The Nation 
made a decision to do away with LORAN. And, as such, we are no 
longer transmitting over LORAN, sir, in the U.S.
    Mr. Rice. OK. Thank you very much.
    Mr. Hunter. I thank the gentleman. Hey, we are just going 
to--I am sure Mr. Garamendi has got some more questions. I just 
want to ask really quickly. You said that--you talked about the 
Panamax ships, and the Army Corps says that is something we are 
going to look at. Why aren't we fast-tracking this? Why is it 
taking 10 or 15 years? Why hasn't the Coast Guard come out 
vocally for fast-tracking this stuff, and NOAA and, together 
with the Army Corps, doing everything that you can to make sure 
that the U.S. isn't left in the international dust or wake, I 
guess you would say, right, international wake?
    But why aren't we doing that? I mean, we can obviously say 
that we need to do this, and doggone it, we are going to look 
at it. We all know what the ship sizes are going to be, we all 
know what their drafts are. We know what our port needs--which 
ports need to be dredged for what ships. So why don't we just 
do it? The problem is that we aren't. We are going to talk 
about it and plan for it and study it, and we will be about 10 
to 20 years behind everybody.
    So, that is my question. Why aren't we doing it? And why--I 
mean I haven't seen anything on my desk for a fast-track 
authority for the Army Corps of Engineers to be able to do this 
so that we are prepared, like the rest of the world is. I 
haven't seen that. It might be at this meeting you are going to 
later that we are not going to.
    Mr. Hannon. Mr. Chairman, one of the things that we are 
doing within the Army Corps of Engineers addresses our civil 
works transformation. Within our civil works transformation, we 
are able to get from a planning feasibility study, which I 
think you are making reference to, to construction on the 
ground quicker.
    We are implementing a program across the Nation where we 
can do studies and have them completed within 3 years with less 
than $3 million, with complete vertical and horizontal 
coordination, so we move faster and quicker, from feasibility 
to starting the design and construction. This includes all 
planning studies for our ports, as well.
    Mr. Hunter. Let me mention, too, there is--there are 
companies out there that can do dredging without stirring up 
PCBs. They have kind of whirlwind technology that is--they are 
able to dredge in a harbor like San Diego, where we dumped a 
bunch of World War II munitions over the side, and we got to be 
really careful, and super strict and stringent environmental 
regulations. There are companies out there that are able to do 
that now fairly cheaper. I am just wondering. Have you heard of 
them? Or, I mean, you guys know of that, and I am telling you 
what you already know?
    Mr. Hannon. Sir, we work with various companies that do 
that work. In fact, the preponderance of dredging that we do 
from an operation and maintenance perspective is done by 
contracting out.
    And so, we work with those dredging companies and 
corporations to employ the latest technologies to be able to do 
those things that you are talking about.
    Mr. Hunter. Admirals?
    Admiral Servidio. Coast Guard doesn't authorize the 
dredging, sir, we don't permit the dredging. From a nav safety 
standpoint, obviously we are concerned about it.
    I will say, sir, I think some of the U.S. Government's 
decisions are going to be how many ports do we need to have 
ready for the new Panamax vessels. I believe New York, 
Baltimore, Norfolk, and I think Miami, are going to be capable 
of handling them. The question will be how many other ports we 
might need to invest in. And I don't have the answer to that, 
sir.
    Mr. Hunter. With that, I yield to the ranking member.
    Mr. Garamendi. Thank you, Mr. Chairman. The issue of 
dredging is really an issue of Congress. We authorize and we 
haven't authorized much recently. There are no earmarks and 
there are no--the no new start policy has been in place for the 
last 3 years, and so a lot of this is--the problem lies with 
the 435 Members of this House and the Senate that have not 
authorized.
    The three-by-three issue that the Corps just talked about 
is operating. But again, it is not really moving very fast 
because there is no money. And in many cases, there is no 
authorization. The new WRRDA bill, which is in process in the 
conference committee, does address some of this. But, again, it 
is going to come down to money. At the end of the day, we have 
been reducing the amount of money available for almost all 
infrastructure, including much of what is being discussed here 
in terms of dredging locks and the rest.
    So, if we really want to advance this, we are going to have 
to pony up the money and to make it available. And if the new 
three-by-three works as it seems to be, it will deal with some 
of the problems of getting these things done on time. We need 
to watch that.
    The questions really go into a lot of detail, here, and I 
think we can probably spend several hours on it. But there is 
the Physical Oceanographic Real-Time System, known as PORTS. I 
think it is operating in just three ports in the United 
States--three places, I guess, is the right way to say that, 
three locations. And it seems to have been very successful in 
reducing groundings and providing information. Could we discuss 
that and what it would take to--if, in fact, it is successful, 
what it would take to implement that in more locations?
    Admiral Glang. Yes, sir. So PORTS is operational in 22 
locations around the country. A PORTS system for a particular 
port will--it is a suite of sensors, so there will be water-
level gauges, weather gauges, tides and current gauges. And 
those--the actual collection of systems that are being 
observed, or observations in each port, that will vary. So some 
ports will have fog sensors, some will have air gap sensors 
under bridges, and things like that.
    Mr. Garamendi. So it works, and it is successful?
    Admiral Glang. It works----
    Mr. Garamendi. And it reduces problems of all kinds?
    Admiral Glang. Absolutely. We hear first-hand from pilots 
around the country. There will be major ship movements that 
rely on the air draft sensors under the bridges that come 
safely in and out of port.
    Mr. Garamendi. OK. Should it be expanded? Are there any 
impediments to its use, and----
    Admiral Glang. So PORTS funding is probably the issue that 
we are getting at here. There is a distinct separation on the 
role that NOAA takes in the PORTS system. So we will oversee 
the collection of the data, the project management of the 
system, and the dissemination of the data. The funding of the 
system and the operations and maintenance of the sensors, that 
is the responsibility of the partners in a particular port. And 
we have lots of different examples of local partners. Some of 
them are port authorities, some are Federal agencies. In some 
cases it is the pilots who are also involved. So there are 
different models in different areas for those partnerships.
    Mr. Garamendi. So no changes in that system are 
recommended.
    Admiral Glang. Well, certainly it would be great if port 
systems were fully federally funded. That would certainly 
strengthen the reliability of the system. However, the reality 
is that we do rely on these partnerships right now.
    Mr. Garamendi. Very good. Admiral?
    Admiral Servidio. Sir, what I can say is, from a captain in 
the port--and I have been a captain of the port in a number of 
different ports--it allows you to reduce some of the safety 
margins that you would have in place if you have real-time 
information. So you really know how much under-keel clearance 
you need, as opposed to estimating it. So there is an economic 
advantage to having PORTS available, and there is a safety 
advantage to having it, too. It allows us to reduce some of 
those safety margins.
    Mr. Garamendi. One final question has to do with the 
security of these systems. We are moving more and more to E-
Navigational systems, as we should. The question of cyber 
security comes up. If you could, address that issue. How do we 
provide the security that the information is real, that it is 
not false and leading to some sort of accident?
    Mr. Hannon. Sir, from the Corps of Engineers' perspective, 
the majority of what we are putting out right now is really 
Internet-based via Web services. At this point in time, we are 
working within the information security requirements and are 
not having any real challenges with that. I think part of our 
challenge will be ensuring that as we are putting information 
out, we are making sure everyone understands what is 
authoritative data and work to provide quality assurance on 
what we put out to ensure there is no misinformation.
    Mr. Garamendi. Admiral, Admiral? Which one would like to go 
first?
    Admiral Servidio. Sure, sir.
    Mr. Garamendi. Coast Guard?
    Admiral Servidio. I think, overall, in all of the maritime 
we need to be more cyber security aware. I think it is a 
growing area that people are starting to understand. I think 
that is one of the reasons why the Coast Guard is the competent 
agency for managing AIS. We have it as a Federal function, so 
we can ensure that we have that cyber security backbone in 
place, as we roll out the E-Navigation types of systems.
    Mr. Garamendi. And you will be somewhat more successful 
than Target?
    Admiral Servidio. We recognize it is a concern, sir, and we 
will be addressing that concern.
    Mr. Garamendi. I want to learn more about that. But let's 
go ahead--NOAA?
    Admiral Glang. Yes, sir. I am not sure how much more I can 
add. There are Federal standards for IT security. We are always 
having to grow those and improve those, of course, because 
vulnerabilities are always being uncovered. So the intent is to 
try and stay ahead of those vulnerabilities.
    Mr. Garamendi. There would seem to be--an additional area 
of concern is that the more we rely upon the entrepreneurs and 
individual companies that are providing applications using the 
basic data, the opportunity for problems would seem to 
increase. I think there was some discussion about this--let's 
just quickly revisit that. How do you doublecheck? Is that a 
responsibility that you have? Or is that the responsibility of 
the entrepreneur, and the potential for a significant lawsuit 
if they have bad information? What do we have here?
    Mr. Hannon. Sir, with the Corps, putting information on the 
Internet, anyone can take that information and use it. I think 
our responsibility is to ensure that we continue to communicate 
well with folks that use our data. Our partners know that we 
are the ones that do the surveys, that provide information for 
the charts, and so, we are communicating with our industry 
partners. We are continuing to communicate with our Federal 
partners, and making information available to the public about 
what new advances we are making within the E-Navigation realm. 
That way they have a source to come back to us to ask questions 
and get clarification, if there is a need.
    Admiral Servidio. We do have the regulatory regime, sir, 
the international regs, the national regs, the industry best 
practices, with regards to cyber security and others. Keeping 
current with what the vulnerabilities are, as Admiral Glang 
testified to, is going to be a challenge, but it is one that we 
are going to have to address, sir.
    Mr. Garamendi. I--Admiral Glang, want to add anything here?
    [No response.]
    Mr. Garamendi. It just seems that we want--it seems we 
would want to have private companies take the data, the 
information, and then use it in developing applications of 
various kinds. But the application could be incorrect, could be 
troublesome. Not that I am suggesting a new regulatory regime, 
but this--there is a potential problem here that is buyer 
beware, I mean, as to those applications.
    I will let it go at that. I don't know, it is a concern 
that is going to be, I think, increasing as private companies 
take this data and provide applications of it that will be 
available to various users. I yield back.
    Mr. Hunter. Thank the ranking member. Explain now on this 
last note. There is a requirement, if you are a tanker you have 
to use NOAA-approved stuff. But if you are a jet skier, you can 
use your iPhone, right? There is less gas or oil involved in a 
spill, right?
    One last question I have got. How do you allocate the money 
spent on intercoastal versus ocean coastal, outercoastal--I 
don't know what the word is, but coastal waterways, meaning the 
ocean coast and the inner coastal stuff. How do you allocate 
the money?
    Mr. Hannon. Sir, within the Corps of Engineers, we look at 
the highest usage areas in regards to inland waterways and in 
regards to coastal. So we have about five inland systems that 
carry about 95 percent of the commerce. And the same for our 
coastal system, there is a smaller number of costal areas that 
carry most of the commerce.
    Our first priorities are at those highest use areas. Then, 
with moderate and lower use, we still are able to fund some of 
those, as well. But, our first priority is to the higher use 
areas.
    Mr. Hunter. So, like, the Northeast and the lock system 
coming down from Pennsylvania, moving south? Are you familiar 
with what I am talking about, the lock system, the intercoastal 
lock system that they have?
    Mr. Hannon. On our lock and dam systems, we look at where 
we have our highest use areas to prioritize the need for 
repairs and for operation and maintenance. Our lower use 
systems would have a lesser level of service, as far as the 
time that a lock was actually open and available. But it is 
based on the use and the need, primarily to the commercial 
aspects of things, and then with our recreation community to be 
able to make that service available, as well.
    Mr. Hunter. Got you.
    Admiral Servidio. Mr. Chairman, our aids navigation is a 
national system. Our AIS system is a national system. So we use 
those assets where they are needed. For example, we can have a 
buoy tender that is up in New England that could, if necessary, 
be servicing aids elsewhere. We think the resiliency that comes 
with that system is very apropos.
    Mr. Hunter. Great. And Mr. Rice asked about the LORAN, 
long-range--LORAD?
    Admiral Servidio. LORAN.
    Mr. Hunter. LORAN, sorry, LORAN. And he said, ``I hope it 
is done with''--so that was the backup for using GPS. So the 
idea was to go GPS. You have to have a backup for it, right, in 
case the satellites go down or there is a problem with it. And 
LORAN was the backup for that, right? Or e-LORAN, it was low 
radio frequency backup for GPS. That is what it was supposed to 
be, or no?
    Admiral Servidio. LORAN was an older system, sir. I think 
it was operational in the 1970s and 1980s, when I was first 
assigned to a cutter. Those were----
    Mr. Hunter. What am I talking about, then? That is----
    Admiral Servidio. eLORAN.
    Mr. Hunter [continuing]. eLORAN, right.
    Admiral Servidio. It is something that the Nation was 
looking at as a possible backup. To be honest, sir, it is a 
national decision. I believe that, with the classification 
levels involved and others, I am not sure how much I could----
    Mr. Hunter. Well, you can tell me this. If you are going to 
go GPS, if you are going to go full GPS at some point, you have 
got to have a backup for that. Right?
    Admiral Servidio. We have visual aids to navigation, sir. 
We have a number----
    Mr. Hunter. So the visual aid is the backup.
    Admiral Servidio. But I believe for the Nation, sir, I 
believe that it has been studied, and there has been 
determinations made as to whether eLORAN is necessary or not, 
sir.
    Mr. Garamendi. Call in the Marines.
    Mr. Hunter. Yes, right.
    [Laughter.]
    Mr. Hunter. Gentlemen, thank you all for your time and your 
testimony, and for what you do for the country. We appreciate 
it. And thanks for being so forthcoming.
    And we have a second panel. Do I end this? Do I bang the 
gavel here, or we just go to the second panel? OK, second 
panel.
    We are going to take a break here for 5 minutes, too.
    [Recess.]
    Mr. Hunter. The subcommittee will come to order again. Our 
second panel of witnesses today includes Mr. Dana Goward, 
president and executive director of the Resilient Navigation 
and Timing Foundation; Dr. Larry Mayer, professor and director, 
School for Marine Science; director, Center for Coastal and 
Ocean Mapping; and codirector, NOAA/UNH Joint Hydrographic 
Center, University of New Hampshire; Mr. Scott Perkins, 
testifying on behalf of the Management Association for Private 
Photogrammetric Surveyors; and Captain Lynn Korwatch, executive 
director of the Marine Exchange of the San Francisco Bay 
Region. We have everybody.
    Mr. Goward, you are recognized first. Thanks for being here 
to all of you.

TESTIMONY OF DANA A. GOWARD, PRESIDENT AND EXECUTIVE DIRECTOR, 
  RESILIENT NAVIGATION AND TIMING FOUNDATION; LARRY A. MAYER, 
   PH.D., PROFESSOR AND DIRECTOR, SCHOOL FOR MARINE SCIENCE; 
DIRECTOR, CENTER FOR COASTAL AND OCEAN MAPPING; AND CODIRECTOR, 
     NOAA/UNH JOINT HYDROGRAPHIC CENTER, UNIVERSITY OF NEW 
  HAMPSHIRE; SCOTT PERKINS, GISP, ON BEHALF OF THE MANAGEMENT 
ASSOCIATION FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS (MAPPS); AND 
 CAPTAIN LYNN KORWATCH, EXECUTIVE DIRECTOR, MARINE EXCHANGE OF 
                  THE SAN FRANCISCO BAY REGION

    Mr. Goward. Thank you, Mr. Chairman, Ranking Member. Thank 
you very much for the opportunity to be here today. By way of 
introduction, my last job was as the director of Marine 
Transportation Systems for the United States Coast Guard. I now 
head an educational and scientific nonprofit, the Resilient 
Navigation and Timing Foundation. And it is a pleasure to be 
here representing that organization today.
    And let me say right off that, Mr. Chairman and Ranking 
Member, you are welcome to any of our meetings any time, and I 
will ensure that you get invitations. Unlike the Government, we 
are very open on that sort of thing.
    In 2009, officials at the Newark International Airport were 
puzzled as to why a newly installed landing system would 
periodically malfunction. After much effort, and working with 
the FAA and the FCC, they finally discovered it was a driver 
passing by on I-95 with a GPS jamming device that he had 
illegally purchased on the Internet to hide his activities from 
his employer. They have since protected their landing system to 
most GPS jamming, but they still detect about five jammers 
going by on I-95 every day.
    In London, The Economist magazine reports that the stock 
exchange loses GPS timing about 20 minutes a day, probably for 
the same kind of reasons. North Korea periodically jams GPS, in 
South Korea. The Russian military, as a matter of doctrine, 
believes that their forces will not have access to space 
signals when they go into combat, because they are so easy to 
interfere with. And a professor at the University of Texas has 
shown how easy it is to spoof GPS receivers and essentially 
take over drone aircraft and some ships.
    So I mention these stories to make three very important 
points. First, GPS is by far the most important and significant 
Federal aid to navigation, bar none. Not only is it essential 
transportation infrastructure, but it is also essential to 
telecommunications, cell phones, to the Internet, financial 
transactions, electrical power distribution, and even precision 
agriculture. It enables about a 30-percent efficiency in the 
agriculture of this Nation. So it is really a silent utility, 
much like running water. Something we can do without for short 
periods, but even then things get fairly unpleasant pretty 
quickly. And extended disruptions could be disastrous.
    So, my second point is that the United States Government 
has known about this for quite some time. And in 2008, as I 
think was mentioned, the Federal Government decided to 
establish enhanced LORAN, eLORAN, much different from the old 
LORAN, much more precise, much less expensive, much more 
automated. They decided to establish eLORAN as a terrestrial 
augmentation for GPS. It is a high-power signal, very difficult 
to disrupt.
    Unfortunately, nothing became of those plans, even though 
it was publicly announced. At the same time, many other 
nations--Russia, China, Saudi Arabia, all of northwestern 
Europe, led by the United Kingdom--have either retained or are 
building eLORAN systems, because they don't want to be so 
dependant on space as we are. In fact, South Korea and India 
also have plans that they are actively engaged in to construct 
eLORAN systems.
    My final point is that we could have an enhanced LORAN 
system here in the continental United States and reduce the 
threat and the risk to the American people for about $40 
million--that is $40 million with an M.
    Mr. Garamendi. We don't deal in numbers that small.
    [Laughter.)
    Mr. Goward. I am sorry, sir, that is part of the problem. 
Exactly. And we could do it by rehabilitating unused existing 
infrastructure that is in the possession of the Federal 
Government. This would actually save the Federal Government 
money in the long run, because it wouldn't be necessary to go 
through the expense of disposing of that infrastructure, and it 
would also allow agencies like the FAA and the USCG to reduce 
their dependance on old, industrial-age navigation systems that 
they must maintain right now, because GPS is a single point of 
failure.
    Unfortunately, rather than rehabilitating this 
infrastructure, the Department of Homeland Security is in the 
process of dismantling and disposing of it. We, in the RNT 
Foundation, think this is not a proper use of public funds, it 
will cost the Government more in the long run. And, in fact, we 
encourage an immediate halt to that activity.
    In fact, we believe so much in the Federal Government's 
decision to establish eLORAN, that in order to reduce the 
burden on Government we have proposed a public-private 
partnership so as to quickly establish the system within this 
country, provide a second navigation timing signal for all 
critical infrastructure, and reduce the risk to the American 
people as quickly as possible.
    I have some reference material I will leave for the staffs. 
I would like to submit the rest of my comments for the record. 
And thank you very much, again, for the opportunity to be here 
with you.
    Mr. Hunter. Thank you. Dr. Mayer, you are recognized. I am 
looking at the wrong--Dr. Mayer. Go ahead, Doctor.
    Mr. Mayer. OK, thank you.
    Mr. Hunter. Sure, and then we will jump around a little 
bit.
    Mr. Mayer. Chairman Hunter, Ranking Member Garamendi, my 
name is Larry Mayer. I am the director for the Center for 
Coastal and Ocean Mapping, and codirector of the NOAA Joint 
Hydrographic Center at the University of New Hampshire. These 
centers serve NOAA, other Federal agencies, and the private 
sector through the development of new tools and protocols that 
support a range of ocean and coastal mapping applications, 
including safe navigation.
    Particularly relevant to our discussion today are the 
Center's efforts in collaboration with NOAA, to ensure that we 
have the best tools possible to map hazards on the sea floor 
and in the water column. And, as the complexity of the data 
that we collect increases, that we can present those data to 
mariners and others in ways that are easy to interpret for the 
safest operation of vessels in all circumstances.
    In support of these goals, we have embarked on a project we 
call the chart of the future, aimed at taking advantage of the 
advances in sea floor mapping, in navigation systems, 
positioning systems, water level measurements, all the things 
we have heard about today, and exploring how these many sources 
of information can be integrated and displayed in the most 
useful and intuitive fashion.
    What I would like to do today is build on the remarks of my 
colleagues and take advantage of the tremendous infrastructure 
they are supporting, and data they are providing, envision what 
the chart of the future might look like, and the services it 
might provide.
    To illustrate this, I have brought this little video clip 
to give you a tangible idea of the concepts I am describing. As 
you look at the video, I want to emphasize that what you are 
seeing is not a cartoon or an artist's rendition. It is the 
product of real data, collected and provided by our lab and 
many of the agencies represented here today.
    As you see, our vision of the chart of the future seeks to 
provide the mariner with a complete picture of the sea floor, 
the surrounding shoreline, and other relevant features. It 
takes advantage of the fact that our modern, multibeam mapping 
systems can provide complete coverage of the sea floor, rather 
than the sparse samples that earlier lead-lines and single-beam 
echosounders produced. Mariners will no longer need to mentally 
integrate numbers and contours displayed on charts to determine 
the relationship of their vessel's keel to the sea floor. But 
rather, they will be able to clearly see, in an intuitive 
perspective view, the relationship of the keel to the sea floor 
and other hazards.
    The displays will be interactive and will be able to bring 
in the most relevant information for the task at hand. 
Information about fisheries habitat or sand or gravel resources 
can be superimposed on the depth information, providing those 
charged with the protection of the environment or the 
exploitation of resources the critical information they need.
    The fundamental issue for safe navigation is the distance 
between the sea floor and the bottom of the vessel. This 
distance is constantly changing with the tides, and yet our 
charts are static products. We envision a chart of the future 
that is dynamic and tide-aware. The chart will receive NOAA 
tide data through the AIS system, and update itself to display 
the actual under-keel clearance at a given time and location.
    As the vessel enters a harbor or approaches a coast, a 
collection of fully geo-referenced images can be displayed in a 
3D context, creating what is, in essence, a digital, 3D coast 
pilot. A click on a feature described in the text will 
instantly bring up an image of that feature in a 3D map, and a 
click on the image will instantly bring up the text describing 
that feature.
    Finally, we can also bring in full 360-degree panoramas of 
our harbors and coastlines. With these images incorporated into 
the chart of the future, the mariner can enter unfamiliar 
harbors at night or in fog, and still see a clear picture of 
the surroundings.
    I presented a vision of what the chart of the future might 
be, a vision that we believe will provide the mariner and the 
Nation with an enhanced level of safety and security, as well 
as support multiple uses of the data. What we have described is 
quite doable. But to make this vision a broader reality, we 
need to ensure that our Nation continues to support and upgrade 
the critical infrastructure that it depends on.
    We must ensure continued provision and upgrade of high-
precision positioning systems, just as we have been hearing, 
tide measurement systems, the support of AIS, smart buoys, 
enhanced weather, wave, and current measurements. Most 
importantly, we have to strive to provide full bottom coverage 
to our critical waterways, harbors, and coastal areas, 
remembering that many of these areas are dynamic. And that we 
will also need to understand how they change with time or in 
response to events like Superstorm Sandy.
    And, above all, we have to ensure that the data collected 
are of the highest quality and meet the highest standards. If 
this can be done, we are confident that the future of maritime 
navigation will be bright and safe.
    I thank you for the opportunity to share this vision with 
you, and I am happy to answer any questions you may have.
    Mr. Hunter. Thank you, Doctor. I appreciate it. That is 
pretty amazing.
    Mr. Perkins, do you have a video?
    Mr. Perkins. Pardon?
    Mr. Hunter. Do you have a video?
    Mr. Perkins. No, sir.
    Mr. Hunter. OK. That was fun.
    [Laughter.]
    Mr. Perkins. Mr. Chairman, members of the committee, I am 
Scott Perkins. I am a geospatial professional out of Mission, 
Kansas, testifying today on behalf of the MAPPS Association, a 
national association of private-sector geospatial firms.
    Serving and mapping in geospatial data supports a variety 
of maritime functions, such as port and harbor maintenance, 
dredging, and that facilitates 98 percent of our international 
trade. Federal Government has had a historically important role 
in providing those aids to navigation, the ATONs. Coast Guard 
performs the necessary beneficial service for the Nation in 
servicing and maintaining those aids to navigation. They are an 
integral component of facilitating the safe movement of goods 
and people through that 45,000 miles of maritime transportation 
system and throughout the Great Lakes.
    The reliance on ATONs by mariners and recreational boaters 
has steadily changed with the expanded capabilities and the use 
of the modern positioning and timing systems, as my colleague 
has already mentioned, systems that were built upon GPS and 
LORAN and other data and services. This has directly 
contributed to the draw-down on the number of the aids to 
navigation that the Coast Guard has had to maintain. That is a 
positive draw-down.
    We recommend that the Coast Guard publish weekly changes to 
the list as a Web service, so that anyone can use that data so 
that they can update it on to their Web applications, their 
desk top, their smartphones, and increase the ease of use of 
that data.
    GPS forever changed the use of the compass. The electronic 
chart has forever changed the use of the paper chart. 
Autonomous underwater vehicles are going to change the ATONs 
and the large navigational buoys, as we know them. The AUVs are 
coming at an amazing rate. There are already thousands of these 
autonomous vehicles on the water's surface and underneath the 
water's surface. These systems will become what were known as 
the light ships of our future, replacing or reducing the large 
navigational buoys that the Coast Guard has to maintain.
    These new ATONs are going to be equipped with the 
hydrographic surveying tools my colleague on my right has 
showed you, such as depth measuring devices, the capability to 
stay positioned over a fixed hazard or a coastal rock, the 
ability to renavigate over top of a moving river bottom on the 
inland waterways.
    The future ATON is going to be built upon this AUV-type 
technology. It is going to recognize changing water levels, 
changing currents, atmosphere conditions, and provide near 
real-time positioning. This is a more dynamic and responsive 
system of aids to navigation.
    However, NOAA, working with its contractors, cannot meet 
the demand for authoritative hydrographic data at the current 
level of funding for navigation, observations, and positioning 
programs. Services are crucial to the future development to 
these aids to navigations and AUV deployment, such National 
Ocean Service programs as GRAV-D and coastal LiDAR, that 
provide the baseline data that is critically important to 
transportation in our economy. These activities need to be 
funded at the present level of higher.
    It is also important that Congress properly reauthorize the 
Hydrographic Services Improvement Act, H.R. 1399, that was 
introduced by Representative Young. And we also recommend 
passing of H.R. 1382, the Digital Coast Act, that was 
introduced by Representative Ruppersberger of Maryland and 
Representative Young. Enactment of these bills will go a long 
way towards a coordinated and comprehensive national mapping 
effort for coastal, State, and territorial waters of the United 
States. It is going to better integrate these navigational and 
nonnavigational geospatial activities in NOAA.
    We emphasize the need to better coordinate geospatial 
activities among the various agencies and numerous programs and 
the applications. This has already been noted in several GAO 
reports.
    One solution that we recommend would be the enactment of a 
provision similar to the one included in the Biggert-Waters 
Flood Insurance Reform Act of 2012. Develop deep, cross-
cutting, joint-funding strategies to leverage and coordinate 
the budgets and expenditures. Recommend the similar legislative 
position with regard to the geospatial data and charting in the 
aids to navigation.
    There is an enormous capacity and capability in the private 
sector to provide the Government agencies the geospatial 
services that are needed to support aids to navigation and E-
Nav. MAPPS urges Congress to enact legislation to accelerate 
and complete the transition from Government and university 
performance of commercially available activities to the 
contractor performance, while refocusing the agencies back on 
inherently governmental activities.
    In summary, the aid to navigation of the future can be and 
should be a smaller, lighter, more agile, more self-sustaining 
system than the current large navigational buoys. The new 
public-private partnership is the key to success here.
    Thank you for the opportunity to provide these comments, 
and I look forward to your questions.
    Mr. Hunter. Thank you, Mr. Perkins.
    Captain Korwatch, you are recognized.
    Captain Korwatch. Good morning. My name is Captain Lynn 
Korwatch, and I thank you for the opportunity to speak to you 
today. I am the executive director of the Marine Exchange of 
the San Francisco Bay Region. The Marine Exchange is a 
nonprofit trade association, and our membership is comprised of 
maritime labor, tug companies, pilots, port authorities, and 
the many, many organizations that provide services and support 
to ships in the San Francisco Bay region.
    As strictly an honest broker of information, the Marine 
Exchange is often called upon to participate in activities that 
support the health and success of our region. These include 
managing the NOAA PORTS system, acting as secretariat for our 
Maritime Security Committee and Harbor Safety Committee, 
sponsoring a local Trade Facilitation Committee, and managing, 
on behalf of FEMA, over $95 million of port security grant 
money.
    Since the Exchange is considered a neutral party in the 
region, I was asked to chair the local Harbor Safety Committee. 
The committee is sponsored by the California Office of Spill 
Prevention and Response, and is comprised of representatives of 
every maritime segment in San Francisco, including labor, 
tanker, and dry cargo operators, tug companies, fishermen, and 
recreational boaters. State agencies such as the State Lands 
Commission, and Federal partners such as the Coast Guard, NOAA, 
and the Army Corps of Engineers all have a seat at the table.
    This committee tackles a wide variety of issues during our 
meetings and our work groups, and we spend a significant 
portion of our time focusing on prevention measures. Needless 
to say, the topic of navigation aids is one that we address 
frequently.
    With the wide diversity of waterway users comes an equally 
wide diversity of experience and technology. The pilots on the 
large ships have sophisticated systems available to assist them 
in guiding their vessels through the narrow channels and the 
bridges of the bay. And this electronic technology can be 
useful. Small vessels, on the other hand, often have nothing 
more than a chart book identifying the markers and buoys around 
the channel. This disparity in training and technology creates 
some challenges in our region and nationwide.
    Mariners rely on a multiple layer of information to 
establish their positions, and the foundational layer they 
depend upon most is the physical objects they see out the 
window and are marked on charts in the same way you look at 
road signs when you are driving. Just as paper charts should 
not be used solely for navigation, neither should electronics 
be the only navigation tools in our toolbox. Without markers 
and buoys to mark the channels or areas of safe passage, the 
challenge of relying on undependable signal is exponentially 
more hazardous, hazardous to the boat operator, hazardous to 
their passengers and crew, hazardous to the other operators in 
the area, and hazardous to the environment of our region.
    There is no question that maintaining buoys, towers, 
lights, lighthouses, daymarks and shapes is an expensive and 
labor-intensive undertaking. But the unalterable fact is that 
these physical aids are essential to the safety of navigation 
on our waterways. Funding this infrastructure is always going 
to be a challenge. It is my opinion that the Coast Guard is the 
best organization to provide national-international continuity, 
and they should receive sufficient funding to provide for the 
continued maintenance of these critical navigation items.
    This is not to say that the use of navigation aids should 
not be explored. On the contrary, newer technologies have 
greatly enhanced maritime safety, and there is no reason to 
think that the future does not hold further improvements. A 
blend of these two systems is most likely the future of safe 
navigation on our waterways. Perhaps a better way to serve 
users is to use electronic aids as a way to augment and enhance 
navigation, versus solely eliminating aids as a way to reduce 
costs. I believe that we must develop a national strategy that 
is transparent and inclusive to the use of all users. Outreach 
to local stakeholders to get their input and expertise will 
help to ensure the success and acceptance of changes to our 
waterways.
    There is an expression that is often quoted in our 
industry: ``If you have seen one port, you have seen one 
port.'' As each port region is unique, this must be factored 
into the decisionmaking regarding the configuration of future 
aids. Moving with deliberation and due consideration of the 
traditions and proven success of our industry will ultimately 
result in the improvement of our waterways and provide a safe 
operating environment for all users.
    I wish to thank you, Mr. Chairman, Ranking Member 
Garamendi, for the opportunity to testify today on behalf of 
the Marine Exchange of the San Francisco Bay Area, and the 
Harbor Safety Committee. I look forward to answering any 
questions you might have.
    Mr. Hunter. Thank you, Captain. Question. What are you a 
captain of?
    Captain Korwatch. I went to the California Maritime 
Academy, graduated from there, and was captain of a very large 
container ship that ran between the west coast of the United 
States and Hawaii.
    Mr. Hunter. For how long?
    Captain Korwatch. And I was the first American U.S. 
captain.
    Mr. Hunter. Got you.
    Captain Korwatch. Female U.S. captain.
    Mr. Hunter. Got you. That is great. OK, thank you very 
much. Thank all of you.
    It seems like, I think, you are all right. And I want to 
start really quick with the eLORAN system. Why did they stop 
it? Because DHS said they needed to do a study about their 
study regarding their study?
    Mr. Goward. Yes, sir. My understanding was that it was a 
budget issue, small though the numbers may be. And I would 
offer that, regardless of the wisdom of the decision at the 
time, since then new threats--as I think you understand--have 
arisen. And new needs for mission assurance across both 
civilian and military applications have arisen. And I would 
offer it is time to reconsider that decision quite seriously.
    Mr. Hunter. Regarding the unmanned vehicles in your video, 
there is a company in California called Liquid Robotics, right, 
and they have a self-perpetuating wave rider surfboard, right? 
So I went and saw their stuff. We had a hearing about 6 months 
ago, and the Coast Guard said that they could not implement any 
of those systems because right now their regulations described 
them as floating debris. So that because they literally didn't 
have a word for this new technology, in their legalese it was 
called floating debris, and they had no way to implement 
floating debris into any of their systems, hopefully they are 
moving on this.
    But I guess I would ask that, from your point of view, what 
are you doing to make inroads? And I would ask all of you. What 
are you doing to make inroads on things like this, where you 
have a technology that is super cheap, super easy, you can put 
any sensor package load you want to on this thing, you can keep 
it in one place for 2 years, or you can have it go around the 
globe five times, whatever you want, how do you make this--from 
an industry side, or an academic perspective, what do you do?
    Mr. Perkins. Chairman Hunter, what we do in the private 
sector is we implement that new technology, and we put it into 
our toolbox, and we go out there and we make revenue with it. 
It is happening right now. There are commercial firms in the 
Midwest that are using these systems already on inland 
waterways. They are being used in ports and harbors in the 
coastal areas. The technology is already fully implemented in 
use. What is lagging behind is the governmental rulemaking 
process on what type of lights and what type of flagging, 
antiquated regulations regarding flagging and lighting.
    Mr. Hunter. Lights and flagging on the automated, unmanned 
systems?
    Mr. Perkins. That is correct. I attended the NAVSAC, the 
Navigation Safety Advisory Committee, meeting in Norfolk, 
Virginia, 2 months ago. And that dominated the topic of 
conversation. That is the Coast Guard Federal advisory 
committee. They are talking about the lights and what type of 
flags, because they think of these as vessels, and they don't--
and, as you mentioned, they don't fit the definition of vessel.
    You know, private sector has a tremendous capacity here to 
move forward and implement this technology. We are on the 
cutting edge of it. It is being used right now. And the 
regulation isn't there, you know, to maintain that----
    Mr. Hunter. How much money could the Coast Guard save if 
their buoys put themselves in place?
    Mr. Perkins. I am not an economist, sir, but----
    Mr. Hunter. Probably a lot.
    Mr. Perkins [continuing]. I can take the task of trying to 
get you an answer on that.
    Mr. Hunter. Got you. OK. Thank you. Doctor?
    Mr. Mayer. Yes. From an academic perspective, it is the 
exact same answer. The technologies are there, they are 
implemented. We can work in between the regulatory issues, but 
to implement this in a Federal sense, there are tremendous 
constraints, because, as Mr. Perkins said, the regulations are 
far behind the technology. And I think it is something we do 
really need to address.
    Mr. Hunter. And, Captain, I think your statements about the 
road signs--your iPhone still tells you which road to turn 
right on. It tells you when it is coming up, but you still have 
to look at it.
    And I am just curious, too, what everybody else's thoughts 
are on how do you keep the old system so that the old man on 
the sea can still look at what he needs to look at, but the new 
kid out there on his sailboat can look at his iPhone and be 
able to navigate, and have it--have all of it without spending 
twice the money and having too much redundancy. Right? How do 
you do that? I mean is it possible for the Government to do 
that, or you think that it will just make everything redundant 
and cost twice as much, because then they are going to have two 
systems fully funded and fully in place that really don't--that 
do complement each other, but not because they made it that 
way, simply because they complement each other? Right?
    Mr. Perkins. Chairman, on the aviation side, in our 
aircraft, we are now using electronic charts on iPads. You 
know, it is no longer a requirement that we load the cockpit 
with the paper charts. But we still put them in the cockpit. 
There is still that redundancy.
    So, in the case of our aircraft, our privately owned 
commercial aircraft, we are using electronic charts first, 
paper charts as the backup, and there is still a compass in the 
dash of the cockpit.
    Mr. Hunter. Sure.
    Mr. Goward. Sir, it is a complicated question, and I will 
try to give a not-too-complicated an answer.
    Part of it deals with the way that Federal maritime aids to 
navigation are provided. There was talk about the 50,000 buoys, 
lights, and such that the Coast Guard provides. There is also 
another 50,000 in the United States that are privately 
provided. And so, there is a--when users are required to come 
forward and validate the need for an aid to navigation, they 
frequently do.
    The problem with the 50,000 that the Coast Guard provides 
is they are provided as a free good. And so, there is a real 
reluctance on the part of any user group to give up something 
that is provided for free.
    Now, if you contrast that with the United Kingdom, where 
aids to navigation are provided by a nongovernmental 
organization and paid for by vessels that pay light fees when 
they come into the ports, the United Kingdom actually made a 
conscious trade-off between electronic and physical aids to 
navigation.
    They did a study and they said, ``We think you can find 
your way from port to port with GPS, but part of the problem is 
the GPS is a single point of failure. What we would propose is 
to establish this enhanced LORAN system to complement GPS so 
that you have two signals. And then we will be able to do away 
with a lot of these large buoys offshore, a lot of these large 
buoy tenders offshore, a lot of the lighthouses. And then, as a 
result, our cost, as the NGO, will go down and your light fees 
will go down. How many people are in favor of that?'' Well, you 
can imagine there wasn't a hand in the room that didn't go up.
    The U.S. Coast Guard and the United States Government 
doesn't have that luxury, because the users don't directly pay 
for and have a financial stake in the 50,000 aids that are 
provided by the Federal Government. So, while providing a 
secondary electronic system will be good, and will allow the 
Coast Guard and the FAA and others to start to move more 
towards electronic navigation, you won't be able to have that 
direct trade-off until the Government sees itself more as the 
navigation authority, as opposed to the navigation--or the 
aids-to-navigation authority, as opposed to the aids-to-
navigation provider.
    And I would argue that having the appropriate 
infrastructure will provide you the base where you can shift 
more of those physical aids to navigation to local control and 
local decision, as to whether or not they should stay in place, 
and whether or not those bills should be paid. But right now, 
the system that we have is very much biased towards the Federal 
Government doing it all.
    Mr. Hunter. So--and, Captain, if you could respond to 
that--I think the last part of what you said is important, 
where you let San Francisco decide what San Francisco Port 
wants, you let San Diego decide what they want. But what you 
are saying is, if your iPhone goes down, then you could turn on 
an AM station and it will say, ``Turn right now.'' But what you 
are talking about is taking down the street signs.
    Mr. Goward. Well, so, I would offer, sir, that your iPhone 
would have two sources of information. And if one of them goes 
down, the other would automatically come in. And I would argue 
that----
    Mr. Hunter. The enhanced----
    Mr. Goward. The enhanced LORAN or GPS----
    Mr. Hunter. Enhanced LORAN is not as sophisticated, though, 
as the GPS, right?
    Mr. Goward. Yes, sir. It is, essentially, as sophisticated 
as GPS.
    Mr. Hunter. It is?
    Mr. Goward. Yes, sir.
    Mr. Hunter. OK.
    Mr. Goward. It can get you within 8 to 10 meters.
    Mr. Hunter. OK.
    Mr. Goward. Which is perfectly fine for maritime aids to 
navigation. And I agree that you would never do away with all 
the buoys and the lighthouses, and so forth. But rather than 
having the decision made in Washington, DC, as to whether or 
not all--which buoys and lighthouses needed to be there, you 
would----
    Mr. Hunter. What are John and I supposed to do, then? We 
could work that out.
    Mr. Goward. I think there is lots of work to be done, so--
yes, sir, besides that. But then the Government, the Federal 
Government, would say, ``We have provided these two electronic 
aids to navigation. We think there is a baseline, a certain 
minimum number of physical aids to navigation. If there are 
others, let's talk about who pays for them, and whether or not 
they stay in place,'' and so forth. But right now that--it is 
very difficult, if not impossible, to have that conversation.
    Mr. Hunter. And, Captain, that is my question to you, and 
then I am--I will yield to the ranking member.
    Captain Korwatch. And I think, you know, certainly one of 
the issues that our industry deals with, just as I mentioned in 
San Francisco, we have a wide diversity of users. We have those 
large, commercial vessels who have the technology. Those 
operators have paid for that technology to be able to determine 
and identify these electronic aids.
    On the other side, we have--just as I think Admiral 
Servidio mentioned--we have a significant number of kayakers. 
We have a significant number of paddle boaters. We have small 
recreational boaters. And now you are telling them, ``You have 
to buy this technology.'' They can't all afford the technology. 
And the same way we do not tell passengers or drivers in cars, 
``You all have to have this technology in order to navigate our 
roads,'' I mean, I think that we still have to have those 
baseline aids so that people can look out their porthole, their 
window, and see the buoy, and know when to turn, what area to 
stay out of, what area they are allowed to transit in.
    I had a conversation with our local Coast Guard, who said 
that there was some attempt to remove some aids in sort of the 
very south part of our San Francisco Bay, where no commercial 
vessels go. The water is very shallow there. And when 
recreational boaters run aground, the only way they can get to 
them is pulling them out by helicopter, a significant cost 
associated with that. Whereas, if we had maintained the buoys 
down there, perhaps we wouldn't have to pay and put personnel 
at risk by lifting them out of there with a helicopter.
    Mr. Hunter. Mr. Garamendi? Mr. Garamendi has got to go, and 
he has somebody waiting for him in his office. If you have 
anything you would like to add, please----
    Mr. Garamendi. First, I thank you for the hearing, Mr. 
Chairman, very important information available from the 
witnesses here. They have given us some data, some information 
in their written testimony. I would like them to follow up with 
specific things. I have a series of questions for, I think, all 
of you. I would like to have that--we will get those to you, 
and if you can get that back in writing, it would be very 
helpful.
    I am particularly interested in the way in which you have 
this public-private partnership in the bay area. Is that a 
model for other places? It may address some of the issues you 
have talked about, Mr. Goward.
    Also, the eLORAN issue, I think, is going to be extremely 
important. One thing we know for certain is that the GPS system 
is going to go down, some time, some place, in a very 
inopportune moment. Is there a backup available? The answer is 
there could be at what appears to be a very minimum cost, if we 
do not destroy the apparatus that is presently in place. And so 
I think we ought to get on that right away. And I would like to 
work with you, Mr. Chairman, on querying the Department of 
Homeland Security about that issue, and perhaps finding $40 
million to provide an alternative to the GPS system.
    And then--I have got to go. My apologies.
    Mr. Hunter. Thank you. I thank the ranking member. The last 
panel that we had, they spent about $2.5 billion together, 
those three groups--NOAA, the Army Corps, and the Coast Guard--
$2.5 billion a year, upkeeping all of this stuff that we are 
talking about. Right? That could give us an icebreaker. That is 
$1 billion. That is an icebreaker, or two icebreakers. There is 
a lot of stuff you could do with that. You could do the eLORAN.
    I guess the big question is, or one thing we may want to 
do, is put us in the same room with the Coast Guard and the 
Army Corps. And instead of having them speak first and then 
leave, everybody kind of sit around. What kind of interaction 
have you had with them when it comes to going back and forth 
with the Coast Guard, with the Army Corps, with NOAA? Besides 
kind of the industry-to-Big Government, ``Hey, here is what we 
have,'' and they say, ``Thank you, we will do a study,'' and 
then you leave.
    Captain Korwatch. If I may, certainly in San Francisco Bay 
we have a very, very close working relationship with our Coast 
Guard partners, as well as our Army Corps and NOAA. They all 
sit, as I indicated, on our Harbor Safety Committee. We discuss 
these issues on a monthly basis. They are very responsive to 
issues that we raise.
    We have a significant amount of problems with dredging, of 
course, like most port regions. We have a significant amount of 
problems with run-off coming from the mountains, assuming we 
have rain, which--not necessarily this year. But we do have a 
very close working relationship with them, and they are very 
responsive if we have issues that come up. They have been known 
to put a buoy back when they have discovered that it really 
does need to be put back in place.
    So, I think, from a local level, all of the Marine 
Exchanges around the country are incomparable relationships 
with our local sectors. There are 12 Marine Exchanges around 
the country, and we all have that same dialogue going on.
    Mr. Hunter. So more explicitly at the 50,000-foot view, the 
interaction between kind of technology and what is happening in 
the private sector, compared to what they are doing, what is 
the dialogue there?
    Mr. Perkins. The MAPPS Association holds a Federal 
conference twice a year, and we invite in our Government 
counterparts, so that the MAPPS Association has a very close 
working relationship with NOAA, the U.S. Army Corps of 
Engineers, U.S. Department of Agriculture, and other agencies. 
And the Coast Guard has not been part of that, but we will do 
some outreach, and we will try to get them to the table, maybe 
getting to the heart of the matter, you know, of the expense. 
Right? And----
    Mr. Hunter. Well, let me stop you there. I mean when the--6 
months ago the Coast Guard called a surface unmanned vehicle 
``floating debris,'' so you must not be getting through to 
them, is what I am saying. I mean there must be some hangup if 
you are talking to them twice a year, and they still think it 
is the equivalent of a floating log.
    Mr. Perkins. Pardon me. They are not coming to our 
meetings, presently.
    Mr. Hunter. I got you, OK.
    Mr. Perkins. So we need to do--our association needs to do 
some outreach and get Coast Guard at the table, right, to help 
work on solving that.
    One thing that the MAPPS Association has suggested is the 
idea of a simple user fee for all GPS-enabled devices. A user 
fee. Just think of the economic driver----
    Mr. Hunter. We call that a tax here, but go ahead.
    Mr. Perkins. I understand that----
    Mr. Hunter. I am kidding, I am kidding. Go ahead.
    Mr. Perkins. I understand that. But if there were a simple 
user fee, for simplicity's sake, of $1 for a new device that is 
navigationally, you know, capable, that would--if that were to 
go into a trust fund, that would provide a pool to replace 
these buoys, keep these markers updated, to provide 
authoritative geospatial data that is necessary for the chart 
of the future. It sounds a lot like a tax, I don't deny that. 
But a user fee is different than a tax. User fees work very 
well for the recreational sportsmen in this country. It has led 
to habitat preservation. I don't need to lecture you on the 
benefits of what the sportsmen have been able to do with those 
type of fees. Thank you.
    Mr. Hunter. Absolutely.
    Mr. Mayer. And if I could just comment in terms of 
interactions with these agencies from an academic perspective, 
the interaction has been quite good. They support much of our 
research, across the board, all the agencies we saw here today. 
The issue is always that we tend to be--in the academic 
perspective, we are looking far ahead. The agencies are 
constrained by their regulations, by international regulations. 
And it is kind of progressing through that----
    Mr. Hunter. They are also constrained by their culture, in 
that they have done it before, so they are going to keep on 
doing it.
    Mr. Mayer. Yes, but from my interaction, they have been 
very open-minded, at least in terms of listening to what the 
future could hold and, again, trying to find how, while we are 
thinking 10 years ahead, how they can implement some of that in 
a much shorter timeframe.
    Mr. Goward. Yes, sir. If I could preface that, while I have 
talked much about eLORAN today, we in the Foundation believe 
there is room for all navigation and timing systems that serve 
a purpose, and that we need as many of them as possible to 
ensure our resilience and that our Nation is secure.
    That said, on the eLORAN issue, even though we are system 
agnostic, we note that the United States has decided this is 
the right way to go, as have many other nations, and so we are 
fully supportive of that, and we want to help the Federal 
Government get to where the Nation needs to be. We have 
discussed this with the Department of Defense, with the 
Department of Transportation. The staffers in both of those 
departments are very supportive. We have not received any 
responses from our inquiries to the Department of Homeland 
Security. We are hoping to reverse that, and that they will 
come to the table and----
    Mr. Hunter. They are a very new department. They have only 
been around 10 years. You have got to give them time.
    Mr. Goward. Yes, sir.
    Mr. Hunter. In 20 or 30 years, they will respond.
    Mr. Goward. It is probably the backlog of correspondence.
    Mr. Hunter. Yes, right.
    Mr. Goward. Yes, sir. So, we are hoping to talk with them, 
as well as the other two lead departments in this role, but it 
is difficult finding someone that wants to take a leadership 
role for this, which is essentially a commons issue. It is like 
maritime or the Internet or space. Everyone wants to use it, 
but no one necessarily wants to be responsible for it and pay 
for it, as inexpensive as it may be.
    Mr. Hunter. It is multiagency, too.
    Mr. Goward. Absolutely multiagency. It cuts across every 
facet of American society.
    Mr. Hunter. Which makes things harder, yes.
    Mr. Goward. Yes, sir. Absolutely. So that, and the fact 
that it is so low cost is--really is the crux of the problem. 
It doesn't--until there is a failure, it doesn't rise to the 
larger consciousness.
    Mr. Hunter. Got you. OK. I have got to run, too. So, 
Captain, Doctor, gentlemen, thank you very much. Thanks for 
your testimony, and have a great day.
    Captain Korwatch. Thank you.
    Mr. Hunter. With that, the subcommittee is adjourned.

    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]



                             <all>


</pre></body></html>
